United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
LAREDO DIVISION
UNITED STATES OF AMERICA
v.
EDWIN OLAND ANDRUS.

§
§
§
§
§

December 17, 2020
David J. Bradley, Clerk

CRIMINAL ACTION NO. L-17-78

MEMORANDUM OPINION AND ORDER
Defendant Edwin Oland Andrus, proceeding pro se, filed a motion to vacate, set
aside, or correct his sentence under 28 U.S.C. § 2255. (Docket Entry No. 92.) The
Government filed a motion to dismiss the section 2255 motion predicated on expiration of
limitations (Docket Entry No. 96), to which Defendant filed a response (Docket Entry No.
97).
Having considered the section 2255 motion, the motion to dismiss, the response, the
record, and the applicable law, the Court GRANTS the motion to dismiss and DISMISSES
the section 2255 motion as barred by limitations.
I. BACKGROUND AND CLAIMS
A jury convicted Defendant of one count of attempted coercion and enticement of
a minor in violation of 18 U.S.C. § 2422(b). The Court sentenced him to a term of 120
months in federal incarceration, to be followed by a seven-year term of supervised release.
(Docket Entry No. 82.) Judgment was entered on March 5, 2018. Id. The judgment was
affirmed on appeal, and the Supreme Court denied a writ of certiorari,on April 15, 2019.
Appendix
A

Defendant filed his pending section 2255 motion on June 5,2020, claiming that (1)
the Court erred by denying his motion to dismiss the indictment; (2) the rule of lenity should
have been applied in his favor; (3) trial counsel rendered ineffective assistance of counsel
by failing to raise an entrapment defense; and (4) his conviction violated the Tenth
Amendment.
The Government argues that the motion should be dismissed as barred by limitations.
II. ANALYSIS
A one-year statute of limitations governs section 2255 proceedings. 28 U.S.C. §
2255(f). Under section 2255(f)(1),1 a section 2255 motion is due one year from “the date
on which the judgment of conviction [became] final.” Here, the judgment became final for
purposes of section 2255 on April 15,2019, when the Supreme Court denied certiorari, and
expired one year later, on April 15, 2020. As alleged by the Government, Defendant’s
section 2255 motion, filed on June 5, 2020, is untimely by approximately seven weeks.
In his response to the Government’s motion to dismiss, Defendant argues that his
habeas petition should be heard. In support, he states that his case has “clear Constitutional
issues, ” and that any rule or law that would bar resolution of his claims is “inherently
unconstitutional.” No legal authorities are cited in support, and the Court finds none.
Defendant further argues that equitable tolling should apply because it would be
'The alternative commencement dates for the one-year limitations period provided in 28
U.S.C. §§ 2255(f)(2), (3) and (4) do not apply in this case, and Defendant argues nothing to the
contrary. Defendant’s allegations show that he was aware of the facts underlying his claims at the
time they occurred prior to trial and during trial.
A 2

“inequitable” not to address his significant constitutional issues. The Supreme Court has
stated that a habeas petitioner is entitled to equitable tolling only if he shows that: (1) he has
been pursuing his rights diligently, and (2) some extraordinary circumstance prevented a
timely filing. Hollandv. Florida, 560 U.S. 631,649 (2010). Defendant’s arguments do not
raise a viable basis for application of equitable tolling..
Defendant pleads no factual or legal basis that would support the timeliness of his
section 2255 motion, and the Government is entitled to dismissal of the motion.
III. CONCLUSION
The Government’s motion to dismiss (Docket Entry No. 96) is GRANTED and
Defendant’s section 2255 motion (Docket Entry No. 92) is DISMISSED WITH
PREJUDICE as barred by limitations. A certificate of appealability is DENIED. The
related civil case, United States v. Andrus, C.A. No. 4:20-CV-2042 (S.D. Tex.), is
ORDERED ADMINISTRATIVELY CLOSED.
Signed at Houston, Texas, on this the

of December, 2020.

KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

A 3

iHutteb States! Court of appeals
for tfje $tftfj Circuit
ORDER
General Docket No. 2021*3

General Order 2020-7 instructed the clerk ’ s office to extend deadlines
for incarcerated pro se filers in 30-day increments because procedures put in
place to respond to COVID-19 by the Federal Bureau of Prisons, Louisiana
Department of Public Safety & Corrections, Mississippi Department of
Corrections, and the Texas Department of Criminal Justice prevented or
delayed the ability of incarcerated filers to meet filing deadlines. Conditions
in these facilities no longer require a blanket extension of deadlines.
Accordingly, the court hereby rescinds the provision of General Order 20207 that directed the clerk to extend deadlines in 30-day increments. The clerk
will advise incarcerated pro se filers previously granted extensions of this
action and establish future deadlines in accordance with Federal Rules of
Appellate Procedure or Fifth Circuit Local Rules.
All previous changes ordered in General Docket Nos. 2020-3, 20204, 2020-5, 2020-6 remain in effect.
Dated this ^

day of January 2021.

Priscilla R. Owen
ChiefJudge, United States Court ofAppeals
for the Fifth Circuit

Appendix
B

